Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


      MEDICARE COMPLIANCE
      REVIEW OF CALIFORNIA
     PACIFIC MEDICAL CENTER,
         PACIFIC CAMPUS,
       FOR CALENDAR YEARS
          2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      January 2013
                                                      A-09-12-02027
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

California Pacific Medical Center, Pacific Campus (the Hospital), is an acute-care hospital
located in San Francisco, California. Medicare paid the Hospital approximately $254 million for
15,035 inpatient and 164,765 outpatient claims for services provided to beneficiaries during
calendar years 2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $3,118,585 in Medicare payments to the Hospital for 224 claims that we
judgmentally selected as potentially at risk for billing errors. These 224 claims consisted of
181 inpatient and 43 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 63 of the 224 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 161 claims, resulting in overpayments totaling
$1,220,636. Specifically, 123 inpatient claims had billing errors, resulting in overpayments
totaling $1,138,758, and 38 outpatient claims had billing errors, resulting in overpayments
totaling $81,878. These overpayments occurred primarily because the Hospital’s existing
controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $1,220,636, consisting of $1,138,758 in overpayments
       for the incorrectly billed inpatient claims and $81,878 in overpayments for the incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
provided information on actions taken to address our recommendations.




                                                ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         California Pacific Medical Center, Pacific Campus ......................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrect Discharge Status .............................................................................................5
          Incorrect Diagnosis-Related Groups ..............................................................................6
          Manufacturer Credits for Replaced Medical Devices Not Reported .............................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Incorrect Healthcare Common Procedure Coding System Codes
            or Number of Units .....................................................................................................6
          Services Not Billable to Medicare .................................................................................7

      RECOMMENDATIONS ......................................................................................................7

      HOSPITAL COMMENTS ....................................................................................................7

APPENDIX

      HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims.

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Examples of the types of claims at risk for noncompliance included the following:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfer claims,

    •   inpatient claims with high severity level DRG codes,

    •   inpatient claims involving manufacturer credits for replaced medical devices,

    •   inpatient and outpatient claims paid in excess of charges,

    •   outpatient surgeries billed with units greater than one,

    •   outpatient claims with payments for drug injections,

    •   outpatient intensity-modulated radiation therapy planning services, and

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day).

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                   2
California Pacific Medical Center, Pacific Campus

California Pacific Medical Center, Pacific Campus (the Hospital), is an acute-care hospital
located in San Francisco, California. Medicare paid the Hospital approximately $254 million for
15,035 inpatient and 164,765 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $3,118,585 in Medicare payments to the Hospital for 224 claims that we
judgmentally selected as potentially at risk for billing errors. These 224 claims consisted of
181 inpatient and 43 outpatient claims. Of the 224 claims, 214 claims had dates of service in
CYs 2009 and 2010, 9 claims (involving transfers) had dates of service in 2008, and 1 claim
(involving a replaced medical device) had a date of service in January 2011.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims selected for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected inpatient and outpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from January to September 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 through 2010;




                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2009 through 2011;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 224 claims (181 inpatient and 43 outpatient claims) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 63 of the 224 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 161 claims, resulting in overpayments totaling
$1,220,636. Specifically, 123 inpatient claims had billing errors, resulting in overpayments
totaling $1,138,758, and 38 outpatient claims had billing errors, resulting in overpayments
totaling $81,878. These overpayments occurred primarily because the Hospital’s existing
controls did not adequately prevent incorrect billing of these Medicare claims.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 123 of 181 selected inpatient claims, which resulted
in overpayments totaling $1,138,758.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 62 of 181 selected inpatient claims, the Hospital incorrectly billed Medicare Part A. The
Hospital subsequently reviewed each of the claims and determined that the patient did not meet
the severity of illness or level of care required to be admitted as an inpatient. The Hospital stated
that these errors occurred because during the period of our review Hospital staff had not used the
assistance of an evidence-based clinical decision support tool. 3 In addition, the Hospital stated
that admitting physician staff were not well informed or educated regarding inpatient admission
determinations. As a result of these errors, the Hospital received overpayments totaling
$680,071. 4

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 43 of 181 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities. For a majority of these
claims, the Hospital should have coded the discharge status as a transfer to another facility
instead of as a discharge to a home; thus, the Hospital should have received the per diem
payment instead of the full DRG payment. The Hospital stated that these errors primarily
occurred because case management and nursing staff inconsistently documented the patient’s


3
 The Hospital now uses McKesson Corp.’s InterQual evidence-based clinical decision support criteria to answer
critical questions about the appropriateness of levels of care and resource use.
4
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.


                                                         5
discharge disposition in the medical records. As a result of these errors, the Hospital received
overpayments totaling $234,554.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 16 of 181 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRGs. For example, for one claim, the Hospital used a DRG for a heart transplant or the
implantation of a heart assistance system even though the patient did not receive such a service
or system. The Hospital stated that these errors occurred because of a lack of internal quality
auditing, a lack of education policies and procedures, and inadequate quality monitoring of
coding vendors that resulted in incorrect coding of these claims. As a result of these errors, the
Hospital received overpayments totaling $212,733.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 412.89(a)) require a reduction in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of the device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to correctly bill for a replacement device that was provided with a credit, hospitals
must use the combination of condition code 49 or 50 (which identifies the replacement device)
and value code FD (which identifies the amount of the credit or cost reduction received by the
hospital for the replaced device).

For 2 of 181 selected inpatient claims, the Hospital received a reportable medical device credit
for a replaced medical device from a manufacturer. However, the Hospital did not adjust its
inpatient claim with the proper condition and value codes to reduce payment as required. The
Hospital stated that these errors occurred because credit memos received by the Hospital finance
department were not forwarded to patient financial services for review and claims adjustment.
As a result of these errors, the Hospital received overpayments totaling $11,400.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 38 of 43 selected outpatient claims, which resulted
in overpayments totaling $81,878.

Incorrect Healthcare Common Procedure Coding System Codes or Number of Units

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 20.4, of the



                                                   6
Manual states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

For 35 of 43 selected outpatient claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes and/or an incorrect number of units. The Hospital stated that these errors occurred
because of a lack of internal quality auditing, a lack of education policies and procedures,
inadequate ongoing education of coding staff, and inadequate quality monitoring. As a result of
these errors, the Hospital received overpayments totaling $76,393.

Services Not Billable to Medicare

Section 1862(a) of the Act states that “… no payment may be made under part A or part B for
any expenses incurred for items or services … where such expenses are for services in
connection with the care, treatment, filling, removal, or replacement of teeth or structures
directly supporting teeth ....”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 20.6.4.A, of the
Manual states that modifier -73 is used to indicate that a procedure requiring anesthesia was
terminated after the patient had been prepared for the procedure.

For 3 of 43 selected outpatient claims, the Hospital incorrectly billed Medicare for services
provided that were not allowable for Medicare reimbursement. For two of the claims, the
Hospital billed Medicare for noncovered dental services (i.e., routine care, treatment, and
removal of teeth). For the other claim, the Hospital incorrectly billed Medicare for a procedure
(with modifier -73) that was canceled before the patient was prepared for surgery. The Hospital
stated that these errors occurred because of a lack of internal claim edits to prevent billing for
dental services and a lack of education on the use of modifier -73. As a result of these errors, the
Hospital received overpayments totaling $5,485.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $1,220,636, consisting of $1,138,758 in overpayments
       for the incorrectly billed inpatient claims and $81,878 in overpayments for the incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
provided information on actions taken to address our recommendations. The Hospital’s
comments are included in their entirety as the Appendix.




                                                 7
APPENDIX
                                                                                                               Page 1 of2




                           APPENDIX: HOSPITAL COMMENTS 





California Pacific 	                     California Campus         Davies Campus             Pacilic Campus

Medical Center                           3700 California Street    Castro & Duboce Streets   2333 Buchanan Street

A Sutter Health AHiliate


                                                                                             Mailing Address
                                                                                             P.O. Box 7999
                                                                                             San Francisco, CA 94120
                                                                                             (415) 600.6000
November 27, 2012

Lori A. Ahlstrand
Regionallnspector General
For Audit Services
Department of Health and Human Services
Office of Audit Services, Reg ion IX
90· 7th Street, Suite 3·650
San Francisco, CA 94103

RE: Report Number: A-Q9·12·02027

Dear Ms. Ahlstrand:

This letter is in response to the U.S. Department of Health and Human Services Office of Inspector
General (010), draft report entitled Medicare Compliance Review o/California Pacific Medical Center ,
Pacific Campus for Calendar Years 2009 and 2010, dated November 1, 2012 .

The OIG audit co vered $3, 118,585 in Medicare payments for the 224 claims (181 inpatient and 43
outpatient claims). We understand that these claims were judgmentally selected by the OIG as potentially
at risk for billing errors . As a result of the detailed review, the OIG identified 161 claims with billing
errors, totaling $1,220,636 in overpayments for CYs 2009 and 2010.

California Pacific Medical Center (the " Hospita l") has reviewed the findings and. except as o therwise
stated, concurs with the recommendations noted in the draft report.

1. 	 The OIG recommends the Hospi tal refund the Medicare con/ractor $1.210.636, consisting of
     $1,1 J8, 758 in overpayments for incorrectly billed inpatient claims and $81,878 in overpayments for
     the incorrectly billed outpatient claims.

    The Hospital has refunded $1,220,636 while awa iting adjudication of the Part B claims, and we are 

    researching our ability to rc-bill for ccruin Part B serviccs in rclation 10 those stays. 


2. 	 The OIG recommends the Hosp!tal strengthen con/rollo ensure full compliance wilh Medicare
    requirements.

    The Hospi tal is taki ng the OIG audit findings and recommendations seriously. as we further 

    enhance our internal controls. These include providing additional education to coding and 

    billing staff, creating additional edits, providing education to case management staff, and 

    building processes to ensure that manufacturer credits are appropriately refunded . 





Community Based. Not For Pro1il 	                                                                    www.cpmc.org
                                                                                                Page 2 of2




Additionally, the Hospital audits and monitors high risk areas as part of our ongoing efforts
to ensure that our inpatient and outpati ent claims are submitted in compliance with Medicare
regulations and guidance.



;+4.:' '"''j-' ," ,
Cali fornia Pacific Medical Center appreciates the professionalism of the OIG audit team

                                   ~. ro, '"', ••"'W.," •"-'"' ,", '"'''''''"

~~ner,           M.D., M .P.
Chief Executive Officer
